                                         September 29, 2006




MEMORANDUM TO:             Luis A. Reyes
                           Executive Director for Operations



FROM:                      Stephen D. Dingbaum /RA/
                           Assistant Inspector General for Audits


SUBJECT:                   EVALUATION OF NRC’S USE OF PROBABILISTIC RISK
                           ASSESSMENT (PRA) IN REGULATING THE
                           COMMERCIAL NUCLEAR POWER INDUSTRY
                           (OIG-06-A-24)


Attached please find the Office of the Inspector General’s report, Evaluation of NRC’s
Use of Probabilistic Risk Assessment (PRA) in Regulating the Commercial Nuclear
Power Industry. This report reflects the results of the evaluation performed by
Scientech, LLC, on behalf of the NRC Office of the Inspector General.

At an exit conference on September 8, 2006, NRC officials agreed with the report’s
findings and opted not to submit formal written comments.

As a supplement to this Scientech report, OIG conducted its own review of historical
documents and information surrounding the use of risk in regulation at NRC to more
clearly understand how PRA fits into NRC’s use of risk regulation. In September 2006,
OIG issued a report, Perspective on NRC’s PRA Policy Statement (OIG-06-A-25),
identifying key historical underpinnings of risk-informed regulation at NRC.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Anthony Lipuma at 415-5911.

Attachment: As stated
Electronic Distribution

John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration, and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Janet R. Schlueter, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
            EVALUATION REPORT


                Evaluation of NRC’s Use of Probabilistic Risk
                    Assessment (PRA) in Regulating the
                    Commercial Nuclear Power Industry

                      OIG-06-A-24 September 29, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
          Final Report




           Evaluation of
 NRC’s Use of Probabilistic Risk
        Assessment (PRA)
                In
Regulating the Commercial Nuclear
         Power Industry




             August 2006




          200 S. Woodruff Avenue
           Idaho Falls, ID 83401
                                   Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




EXECUTIVE SUMMARY

BACKGROUND

The Nuclear Regulatory Commission (NRC) uses Probabilistic Risk Assessment (PRA) in
the regulatory process. This use has influenced several regulatory areas, including
rulemaking, licensing, the reactor oversight process (ROP), enforcement and enforcement
discretion. PRA has been used by industry and NRC since the 1970’s. In 1995, to clarify
expectations on the usage of PRA, the Commission issued the PRA Policy Statement to
encourage the use of PRA and to expand the scope of PRA applications in all nuclear
regulatory matters to the extent supported by the state-of-the art in terms of methods and
data.

PRA is a methodology which is used to answer three questions:
       1. What can happen?
       2. What is the likelihood?
       3. What are the consequences?

Unlike deterministic analysis that is based on applying experience, testing programs and
expert judgment, PRA develops a quantitative estimate of risk by evaluating the frequency
of initiating events, the conditional probability of the unavailability and the unreliability of
systems, structures and components (SSCs) available to mitigate an initiating event, and the
reliability of human interaction with SSCs. In addition, PRA extends the deterministic
approach by examining multiple failures and unavailabilities of SSCs. Typically the results
of a PRA are presented as core damage frequency (CDF) and large early release frequency
(LERF), the contributors to these estimated results, and the corresponding uncertainties in
the estimated results.

PURPOSE

The objectives of this evaluation were to:

    • Determine if NRC is following prevailing good practices1 in PRA methods and data
       in its use of PRA,
    • Determine if NRC is using prevailing good practices in PRA methods and data
      appropriately in its regulation of licensees, and
    • Determine if NRC is achieving the objectives of its PRA policy statement.

This evaluation addresses only the NRC’s regulation of operating commercial power plants.




1
  “Prevailing good practices” were used in the evaluation in lieu of the NRC PRA Policy Statement
term “state-of-the-art.” A Prevailing Good Practices for PRA document was developed as part of this
project in order to support the evaluation. Note that prevailing good practices are described in
Section II, and Appendix B provides a summary of the prevailing good practices.
Final Report                                                                                 Page i
                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


RESULTS IN BRIEF

The NRC has expended considerable effort and initiative to achieve the objectives of the
PRA Policy Statement since it was issued in 1995. The agency has developed a number of
PRA specific programs and PRA has been applied in multiple other programs and activities.

The following table summarizes the evaluation results.

                                   Table ES-1
                           Summary of Evaluation Results
Evaluation Objective            Evaluation Result
Determine if NRC is using       Although NRC is employing prevailing good practices in the
prevailing good practices2 in   areas evaluated in this report, the agency lacks formal,
PRA methods and data in its     documented processes and associated configuration
use of PRA                      control for its PRA models and software. The evaluation
                                found some instances where better control would be
                                appropriate and where new standards/approaches are
                                planned to be developed and issued, either by the agency
                                or industry organizations such as the American Nuclear
                                Society (ANS) and American Society of Mechanical
                                Engineers (ASME). Specific findings in this area are:

                                   ¾ SPAR models need improved configuration control.
                                   ¾ Quality assurance requirements for SAPHIRE and
                                     GEM software need to be defined and software
                                     control procedures implemented.

                                Recommendations are provided to improve on these two
                                findings in Section III.

Determine if NRC is using       Although NRC is using PRA appropriately in the areas
prevailing good practices in    evaluated for this report, there are instances where
PRA methods appropriately in    increased technical review would be appropriate. Because
its regulation of licensees     these instances are not a major departure from the
                                requirements disclosed during the evaluation, they are
                                provided as suggested areas for consideration for NRC
                                action. Areas for consideration are contained in Section IV.

Determine if NRC is achieving A primary objective of the PRA Policy Statement is to
the objectives of its PRA     increase the use of PRA. As such, NRC has undertaken a
Policy Statement              number of PRA initiatives to further the use and application
                              of PRA consistent with the PRA policy statement. However,
                              this evaluation did not assess the effectiveness of these
                              efforts.




2
 See Footnote 1.
Final Report                                                                        Page ii
                                    Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


As stated in the table above, the two findings3 identified in the evaluation are:

    ¾ SPAR models need improved configuration control.
    ¾ Quality assurance requirements for the SAPHIRE and GEM software need to be
      defined and software control procedures implemented.

    SPAR Models Need Improved Configuration Control

        The NRC has developed Standardized Plant Analysis Risk (SPAR) models for
        estimating plant risk due to equipment failures and operational events. SPAR
        models consist of logical representations of power plant SSCs (using fault trees and
        event trees with initiating event and component failure data) as well as
        documentation that describes the models. SPAR models are used to support the
        ROP, the Accident Sequence Precursor (ASP) Program, and the Generic Safety
        Issue resolution process. SPAR models are also used to perform analyses in support
        of the staff’s risk-informed reviews of license amendments, as well as to
        independently verify the Mitigating Systems Performance Index (MSPI).

        It was found that the SPAR model documentation lags the availability of the SPAR
        computer models. The prevailing good practices for PRA model documentation are
        primarily based upon the American Society of Mechanical Engineers (ASME),
        “Standard for Probabilistic Risk Assessment for Nuclear Power Plants,” which has
        also been incorporated to a large degree in NRC Regulatory Guide (RG) 1.200 For
        Trial Use, “An Approach for Determining the Technical Adequacy of Probabilistic
        Risk Assessment Results for Risk-Informed Activities.”

        The prevailing good practices for PRA configuration control documentation are
        intended to assure that the documentation is adequate to “demonstrate that the PRA
        is being maintained consistently with the as-built, as-operated plant…”4 and that “the
        sources of information used in the PRA are both referenced and retrievable”5.

        The SPAR models are used by the Senior Reactor Analysts in the regions as well as
        by headquarters staff. We understand that the agency plans to maintain the models
        on the basis of specific application needs. For example, when addressing a finding
        during the significance determination process (SDP), the licensee would be
        requested to provide any changes which could significantly impact the assessment.
        Over time, the standard SPAR models are revised to reflect each specific plant by
        addition of more detail as well as to reflect experiences gained in the application of
        the models or up-to-date failure data. This evaluation found that some of the SPAR
        models being applied in the regions were a more recent version than had been fully

3
  A finding is defined as a nonconformance, disclosed during the course of an evaluation, which
requires written response indicating a corrective action plan and a schedule for implementation.
An observation is defined as an isolated/minor departure from requirements disclosed during the
course of an evaluation which, if not addressed, could lead to deficiencies or nonconformances in the
future. In addition, observations are provided which are either positive attributes or areas where
improvement should be considered.
4
  ASME RA-S-2002, including Addenda ASME RA-Sb-2005, “Standard to Probabilistic Risk
Assessment for Nuclear Power Plant Applications.”
5
  Regulatory Guide 1.200 for Trial Use, February 2004, “An Approach for Determining the Technical
Adequacy of Probabilistic Risk Assessment Results for Risk Informed Activities.”
Final Report                                                                                 Page iii
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


       documented. The model documentation identifying changes to the earlier model
       version had not yet been provided for the model being used in the regions.

       Thus, even though the most current model may be in use, the documentation of the
       model to describe modeling and/or data assumptions and changes from previous
       revisions of the PRA models has lagged the availability of the SPAR models. This
       could lead to an inconsistency in evaluations and is not consistent with the prevailing
       good practices.

   SAPHIRE and GEM Software Need Improved Configuration Control Procedures
   Implemented

       The Systems Analysis Program for Hands-On Integrated Reliability Evaluations
       (SAPHIRE) and Graphical Evaluation Module (GEM) software programs are used to
       perform evaluations of the SPAR Models and provide risk results based on the
       events or initiators being evaluated. The quality assurance requirements for these
       software codes could not be fully determined and the program for compliance is not
       well defined.

       The prevailing good practice for software control is described in the ASME PRA
       standard that states the computer codes used to support and to perform PRA
       analysis shall be controlled to ensure consistent, reproducible results and there
       should be a process to maintain configuration control.

       Given the level of usage and number of plant specific SPAR models being analyzed
       using SAPHIRE and GEM, the quality assurance program for the software would be
       expected to be in accordance with prevailing good practices and fully documented.
       While most portions of a quality assurance program for software development and
       maintenance appear to be present, the prevailing good practices for PRA
       documentation, that includes software and maintenance, are not being followed for
       SAPHIRE AND GEM.

These findings are discussed in detail in Section III. In addition, several observations (both
positive and negative) from the evaluation are documented in Section IV.


RECOMMENDATIONS
Three recommendations to address the two findings are provided in Section III. A
consolidated list of areas for consideration is provided in Section IV.




Final Report                                                                        Page iv
                          Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




ABBREVIATIONS AND ACRONYMS

ANS            American Nuclear Society
ASP            accident sequence precursor
ASME           American Society of Mechanical Engineers
CDF            core damage frequency
CFR            Code of Federal Regulations
EF             effectiveness initiatives and activities
GEM            Graphical Evaluation Module
IEEE           Institute of Electrical and Electronics Engineers
LERF           large early release frequency
LOCA           loss-of-coolant accident
LP/SD          low power and shutdown
MSPI           Mitigating System Performance Index
NEI            Nuclear Energy Institute
NRC            Nuclear Regulatory Commission
PRA            probabilistic risk assessment
RG             regulatory guide
RIRIP          Risk-Informed Regulation Implementation Plan
ROP            Reactor Oversight Process
SA             safety initiatives and activities
SAPHIRE        Systems Analysis Program for Hands-On Integrated Reliability
               Evaluation
SDP            significance determination process
SPAR           Standardized Plant Analysis Risk
SRA            Senior Reactor Analyst
SSC            systems, structures and components
V&V            verification and validation




Final Report                                                                     Page v
                                        Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




Table of Contents
Executive Summary ............................................................................................... i
Abbreviations and Acronyms ................................................................................ v
I. Background.......................................................................................................1
II. Purpose of Evaluation.......................................................................................3
III. Findings ...........................................................................................................4
    A. SPAR Models Need Improved Configuration Control ..................................4
      Finding ...........................................................................................................4
      Basis of Finding .............................................................................................4
      Recommendation...........................................................................................6
    B. SAPHIRE and GEM Software Need Improved Configuration Control
           Procedures Implemented .......................................................................7
      Finding ...........................................................................................................7
      Basis of Finding .............................................................................................7
      Recommendations .........................................................................................9
    C. Consolidated List of Recommendations ......................................................9
IV. Assessment Results, Observations and Areas For Consideration ...............10
    A. Assessment of Results with Evaluation Objectives....................................10
      Determine if NRC is using prevailing good practices in PRA methods and
             data in their use of PRA ....................................................................10
      Determine if NRC is using PRA methods and data appropriately in its
             regulation of licensees ......................................................................10
      Determine if NRC is achieving the objectives of its PRA Policy Statement..10
    B. Observations..............................................................................................12
      Consolidated Areas for Consideration .........................................................15
Appendices .........................................................................................................16
    Appendix A - Scope and Methodology of Evaluation ......................................17
      A.1 Introduction...........................................................................................17
      A.2 Project Plan ..........................................................................................17
      A.3 Interviews .............................................................................................18
      A.4 Review of Management Practices and Identification of PRA Uses.......18
      A.5 Development of Prevailing Good Practices ..........................................18
      A.6 Review of RIRIP SA & EF and Other PRA Activities ............................19
      A.7 Development of Observations and Findings.........................................20
    Appendix B - Summary of PRA Prevailing Good Practices .............................21
      B.1 Introduction .......................................................................................21
      B.2 Evaluation Use of Prevailing Good Practices....................................22
      B.3 Prevailing Good Practices.................................................................22




Final Report                                                                                                    Page vi
                                Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




I. BACKGROUND

PRA has been used by industry and NRC since the 1970’s. The NRC uses PRA in the
regulatory process. This use has influenced several regulatory areas including:

    •   rulemaking                                      •   enforcement
    •   licensing                                       •   enforcement discretion
    •   ROP

PRA is a methodology which is used to answer three questions: 1. What can happen? 2.
What is the likelihood? 3. What are the consequences?

Unlike deterministic analysis that is based on applying experience, testing programs and
expert judgment, PRA develops a quantitative estimate of risk by evaluating the
frequency of initiating events, the conditional probability of the unavailability and the
unreliability of SSCs available to mitigate an initiating event, and the reliability of human
interaction with SSCs. In addition, PRA extends the deterministic approach by examining
multiple failures and unavailabilities of SSCs. Typically the results of a PRA are
presented as CDF and LERF, the contributors to these estimated results, and the
corresponding uncertainties in the estimated results.

In 1995, to clarify expectations on the usage of PRA, the Commission issued the PRA
Policy Statement6 to encourage the use of PRA and to expand the scope of PRA
applications in all nuclear regulatory matters to the extent supported by the state-of-the
art in terms of methods and data. Specific elements from the PRA Policy Statement are:

    1. Increasing the use of PRA technology in all regulatory matters to the extent
       supported by the state-of-the-art in PRA methods and data and in a manner that
       complements the NRC's deterministic approach and supports the NRC's
       traditional defense-in-depth philosophy.

    2. Using PRA and associated analysis in regulatory matters to:

            a. Reduce unnecessary conservatism associated with current regulatory
               requirements, regulatory guides, license commitments, and staff
               practices, and
            b. Support proposals for additional regulatory requirements in accordance
               with 10 Code of Federal Regulations (CFR) 50.109 (Backfit Rule).

        This includes developing and following appropriate procedures for including PRA
        in the process for changing regulatory requirements.

    3. Developing PRA evaluations to be as realistic as practicable, with appropriate
       supporting data being publicly available for review.


6
 “Use of Probabilistic Risk Assessment Methods in Nuclear Regulatory Activities; Final Policy
Statement,” Published August 16, 1995.



Final Report                                                                             Page 1
                               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)



   4. Using the Commission's safety goals for nuclear power plants and subsidiary
      numerical objectives with appropriate consideration of uncertainties in making
      regulatory judgments on the need for proposing and backfitting new generic
      requirements on nuclear power plant licensees.

Section II of this report describes the purpose of the evaluation, Section III presents the
findings and recommendations, and Section IV contains the evaluation results,
observations, and areas for consideration. Appendix A describes the scope and
methodology of the evaluation and Appendix B summarizes the PRA prevailing good
practices used in the evaluation.




Final Report                                                                          Page 2
                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




II. PURPOSE OF EVALUATION

The purpose of this evaluation was to conduct an independent review of the NRC’s use
of PRA. The specific objectives of the evaluation were to:

    • Determine if NRC is following prevailing good practices7 in PRA methods and
      data in their use of PRA,
    • Determine if NRC is using prevailing good practices in PRA methods
      appropriately in its regulation of licensees, and
    • Determine if NRC is achieving the objectives of its PRA policy statement.

This evaluation addresses only the NRC’s regulation of operating commercial power
plants. Appendix A contains the scope and methodology of the evaluation.




7
  “Prevailing good practices” are included in the evaluation in lieu of the NRC PRA Policy
Statement term “state-of-the-art” because “state-of-the-art” implies the use of leading edge
technology for which there may not be extensive experience or standards. The evaluation
assumed that the overall intention of the PRA Policy Statement was to use PRA methods, data
and tools that had a technically sound and defensible basis that are defined here as “prevailing
good practices”.


Final Report                                                                               Page 3
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




III. FINDINGS

This section describes the findings from the evaluation that reviewed PRA use and
application in the NRC. A finding is defined as a nonconformance, disclosed during the
course of the evaluation, which requires written response indicating a corrective action plan
and a schedule for implementation.

The evaluation identified two findings:

   ¾ SPAR models need improved configuration control.
   ¾ Quality assurance requirements for the SAPHIRE and GEM software need to be
     defined and software control procedures implemented.


A. SPAR Models Need Improved Configuration Control

NRC has developed Standardized Plant Analysis Risk (SPAR) models for each operating
reactor type. SPAR models consist of a logical representation (using fault trees and event
trees with data) of the plant systems as well as documentation that describes the models.
SPAR models are used to support the ROP, the ASP Program, and the Generic Safety
Issue resolution process. SPAR models are also used to perform analyses in support of the
staff’s risk-informed reviews of license amendments, as well as to independently verify the
Mitigating Systems Performance Index (MSPI).


Finding

The evaluation found that some SPAR models being used for evaluations in the regions had
not been fully documented in a timely manner after changes were made to the model to
make corrections or to enhance the models (lagging on the order of a month or more in
some cases). Thus, even though the most current model may be in use, the documentation
of the model to describe modeling and or data assumptions and changes from previous
revisions of the PRA models has lagged the availability of the SPAR models. This is not
consistent with the prevailing good practice for PRA model configuration control and
documentation and is caused by the lack of a formal process for maintaining the models and
documentation. The models being used should be fully documented by the controlling
organization (the Office of Nuclear Regulatory Research and its contractor) before being
made available to the users of the models (regional staff and headquarters PRA
practitioners).


Basis of Finding

The prevailing good practice for PRA model documentation is primarily based upon the
American Society of Mechanical Engineers, ASME, “Standard for Probabilistic Risk
Assessment for Nuclear Power Plants,” which has also been incorporated to a large degree
in NRC RG 1.200 for Trial Use, “An Approach for Determining the Technical Adequacy of
Probabilistic Risk Assessment Results for Risk-Informed Activities.”

Final Report                                                                         Page 4
                                   Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)



The prevailing good practice for PRA configuration control documentation is intended to
assure that the documentation is adequate to “demonstrate that the PRA is being
maintained consistently with the as-built, as-operated plant…”8 and that “the sources of
information used in the PRA are both referenced and retrievable.”9

The SPAR models are used by the Senior Reactor Analysts in the regions as well as by
headquarters staff. The Level 1 PRA SPAR models are a standardized, plant-specific set of
PRA models that use the event tree/fault tree linking methodology and use an NRC-
developed standard set of event trees and standardized input data. This data includes
initiating event frequencies, equipment performance, and human performance with the
intention that the input data may be modified to be more plant- and event-specific as
resources are available. These SPAR models are evaluated using the SAPHIRE software,
and the associated GEM software.

Over time, the standard SPAR models are revised to reflect each specific plant by addition
of more detail as well as to reflect experiences gained in the application of the models or up-
to-date failure data. This evaluation found that some of the SPAR models being applied in
the regions were a more recent version than had been fully documented. The model
documentation identifying changes to the earlier model version had not yet been provided
for the model being used in the regions. Thus, even though the most current model may be
in use, the documentation of the model to describe modeling and or data assumptions and
changes from previous revisions of the PRA models has lagged the availability of the SPAR
model. Control of the SPAR models is not governed by formal procedures. The SPAR
models are the responsibility of the Office of Nuclear Regulatory Research and most update
work is performed by an NRC contractor, Idaho National Laboratory.

PRA models, including SPAR models, are updated, refined and revised on a periodic basis
to more closely reflect each specific plant by addition of more detail as well as to reflect
experiences gained in the application of the models or up-to-date failure data. These model
updates can include logic changes and data changes as well as adding more detailed
information on the SSCs. However, the refinement and maintenance of models and
documentation that sufficiently represent as-built, as operated conditions (for example ASP,
ROP and event evaluations) should be performed within a formal, documented plan for
model updating and configuration control. This overall plan was not found during the
evaluation. The level of effort needed to maintain such models representative of the as-
built, as-operated plant can be substantial. We understand that the agency plans to
maintain the models on the basis of specific application needs. For example, when
addressing a finding during the SDP process, the licensee would be requested to provide
any changes which could significantly impact the assessment.

The prevailing good practice for PRA model maintenance and configuration control is
described in the ASME PRA Standard, Section 5.4, “PRA Maintenance and Upgrades”, and
Section 5.8 “Documentation”. The ASME PRA standard states that the documentation
“typically includes:


8
  ASME RA-S-2002, including Addenda ASME RA-Sb-2005, “Standard to Probabilistic Risk
Assessment for Nuclear Power Plant Applications.”
9
  Regulatory Guide 1.200 for Trial Use, February 2004, “An Approach for Determining the Technical
Adequacy of Probabilistic Risk Assessment Results for Risk Informed Activities.”

Final Report                                                                            Page 5
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


           a. a description of the process used to monitor inputs and collect new
              information,
           b. evidence that the aforementioned process is active,
           c. descriptions of proposed changes,
           d. description of changes in a PRA due to each PRA upgrade or PRA
              maintenance,
           e. record of the performance and results of the appropriate PRA reviews,
           f. record of the process and results used to address the cumulative impact of
              pending changes,
           g. record of the process and results used to evaluate changes on previously
              implemented risk informed decisions,
           h. description of the process used to maintain software configuration control.”

The SPAR models have continued to evolve as the need arises for evaluation of plant
events and incidents. The changes made to the model to establish the Revision 3P of the
SPAR models are in most cases defined in the detailed implementation steps of the SPAR
Model Cutset Review Process Guidelines and conform to the prevailing good practices for
PRA models for the portions that they modify with the changes documented in the SPAR
model documentation. The guidelines assume a high level of familiarity with PRA
terminology, techniques, tools, and with interpreting analysis results. The guidelines do not
specify the required level of expertise, nor are there any specific references to documents
which specify the level of personnel which are to perform work on or review the models.

The model custodian follows most elements of the prevailing good practices discussed
above to maintain control of the models. He maintains the official model and he is the only
person with access. He maintains a web-based “SPAR Model Change Logging System,”
and two additional documents, "Outstanding SPAR Model Issues.doc" and "SPAR Model
Checklist.doc". The SPAR Model Change Logging System is accessible to allow user
feedback. The system allows suggestions to update the model, to correct errors and
suggest enhancements. The "Outstanding SPAR Model Issues.doc" maintains a list of
items, both generic and plant specific, which have been determined to be needed to keep
the SPAR models current and up to date. There does not appear to be a formal process to
assure that the model reflects the current as-operated plant, although the process makes an
effort to keep the models current. The "SPAR Model Checklist.doc" provides general
guidance for maintaining consistency from plant to plant. Any changes to the model are
discussed with the custodian and he has final review of any changes before the model is
placed in the system. He is the individual who releases the model for use. Although not a
formally documented practice, based on the review of multiple documents and models, the
control of the SPAR models does address elements of the prevailing good practices for PRA
model configuration control.

Configuration control of the SPAR models is important because they are used in the SDP,
ASP, MSPI and other applications and relied upon, at least in part, to support regulatory
decisions.

Recommendation
1. Develop and implement a formal, written process for maintaining PRA models that are
   sufficiently representative of the as-built, as-operated plant to support model uses.




Final Report                                                                         Page 6
                                Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


B. SAPHIRE and GEM Software Need Improved Configuration
    Control Procedures Implemented

The SAPHIRE and GEM software programs are used to evaluate the SPAR Models.


Finding

Software quality assurance must be planned for and managed effectively to ensure success.
However, quality assurance requirements for the SAPHIRE and GEM software codes could
not be determined and the program for compliance is not well defined. Many parts of a
quality assurance program exist and are being applied, but not within a defined process.
Further, changes to the software codes are not fully documented and tested.


Basis of Finding

The prevailing good practice for software control is described in the ASME PRA standard
that states the computer codes used to support and to perform PRA analysis shall be
controlled to ensure consistent, reproducible results and there should be a process to
maintain configuration control. Any changes to the computer codes should be fully
documented and tested.

Given the level of usage and number of plant models being analyzed using SAPHIRE and
GEM, the quality assurance program for the software should be in accordance with
prevailing good practices and fully documented. While most portions of a quality assurance
program for software development and maintenance appear to be present, the prevailing
good practices for PRA software maintenance are not being followed.

Several documents related to SAPHIRE and GEM were reviewed as part of this evaluation
and include:
   • The SAPHIRE version 7 Users Manual – The manual is typical of on-line help guides
       with a folder-type hierarchy structure devoid of section numbers (which would be
       useful to the user).
   • GEM Reference Manual - The manual is typical of on-line help guides with a folder-
       type hierarchy structure devoid of section numbers (which would be useful to the
       user). There is no discussion of quality assurance.
   • Memo on SAPHIRE Quality Assurance Methodology - The process for version
       control, bug fixes, new features, and testing is outlined. This is an informal
       document with no document number or reference.
   • SAPHIRE Change Design and Testing Procedure - This document outlines the
       general approach used for software development and testing. The document also
       contains design change forms, testing forms, and a testing checklist.
   • SAPHIRE changes for the current version - The listing addresses changes between
       08-28-99 and 10-04-05.
   • EXCEL spreadsheet documentation of changes made to SAPHIRE (Change Form
       Log).
   • History of changes to the code - The history includes the revision number, name,
       date, author, and description.


Final Report                                                                       Page 7
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


   •   Testing, verification, and validation report for SAPHIRE versions 6.0 and 7.0.

Only one quality assurance standard is discussed or referenced in the materials reviewed.
This standard is Institute of Electrical and Electronics Engineers (IEEE) 1012-1986,
“Standard for Software Verification and Validation Plans,” which was used in testing
SAPHIRE versions 4.0 and 5.0. The testing was performed by the software developer,
Idaho National Laboratory under contract to NRC. Software testing is the process of
identifying program errors by analysis or by executing programs on a computer using actual
or test data. The objective of testing is to find and correct errors before the software
applications are put into operation. All software applications acquired or revised should be
tested to ensure it satisfies user needs and is error free.

Version 5.0 of SAPHIRE underwent a formal verification and validation process, as
documented in NUREG/CR-6116, volume 9, “Systems Analysis Programs for Hands-On
Integrated Reliability Evaluations (SAPHIRE) Version 5.0 Verification and Validation (V&V)
Manual” that was consistent with prevailing good practices.

Version 7.2 is the current version of SAPHIRE. The testing approach for Versions 6.0 and
7.0 is documented in NUREG/CR-6688, “Testing, Verifying, and Validating SAPHIRE
Versions 6.0 and 7.0”. This report describes that a testing-based verification and validation
process was created for SAPHIRE. Versions 6.0 and 7.0 are “tested” by performing
comparison runs with version 5.0 and making corrections as necessary. The testing
performed does not reference a quality assurance standard other than IEEE 1012-1986.
The users’ manual states that the simplified form of verification and validation focused
resources on code testing and defends this approach with the statement: “However, this
V&V process (used for versions 4.0 and 5.0) was found not to be cost-effective because it
uses most of the available resources for documentation rather than actual testing.”

This form of V&V is not consistent with prevailing good practices. Without formal
documentation of the testing, assurance that the code has been properly tested is reduced.
For example, if new features are added to the code, comparing the results with previous
versions would not exercise the new feature. Since Beta testing is not documented,
verification that all new features have been reasonably tested is not possible. Another
example would be an increase in code limits; comparing the results with previous versions
would not test the new limits or problems that could result if the new limits are exceeded.

It is well recognized that documentation is time and resource intensive, and that this is
expected of a quality assurance task, unless an alternative, equivalent approach is used. An
equivalence basis should be provided that meets the intent of software quality practices

The process and documentation for proposed changes and identified bugs in SAPHIRE
appears to be reasonable. Forms are available for proposed code changes and to report
bugs identified in the code. While most elements of a quality assurance program consistent
with the prevailing good practices are in place and appear to be implemented, the reviewers
did not find evidence of the overall quality assurance requirements nor a program for
compliance with that requirement. A quality assurance program that helps assure correct
calculations is important because the SAPHIRE and GEM software is used to evaluate
SPAR Models that are used for SDP, ASP, MSPI and other applications and relied upon, at
least in part, to support regulatory decisions.



Final Report                                                                         Page 8
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


Recommendations

2. Develop and implement a fully documented process to conduct and maintain
   configuration control of PRA software (i.e., SAPHIRE, GEM).

3. Conduct a full verification and validation of SAPHIRE version 7.2 and GEM.


C. Consolidated List of Recommendations

       1. Develop and implement a formal, written process for maintaining PRA models
          that are sufficiently representative of the as-built, as-operated plant to support
          model uses.

       2. Develop and implement a fully documented process to conduct and maintain
          configuration control of PRA software (i.e., SAPHIRE, GEM).

       3. Conduct a full verification and validation of SAPHIRE version 7.2 and GEM.




Final Report                                                                         Page 9
                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




IV. ASSESSMENT RESULTS, OBSERVATIONS AND AREAS
     FOR CONSIDERATION

This section provides an assessment of the evaluation results with the evaluation objectives,
positive observations, and summary of observations and areas for consideration.

A. Assessment of Results with Evaluation Objectives

A summary of the assessment compared to the objectives of the evaluation is provided in
this section. Areas have been identified that the agency should continue to actively seek
improvements, and act on the findings discussed in Section III.

Determine if NRC is using prevailing good practices in PRA methods and data in their
use of PRA

       Overall, the agency has used prevailing good practices in its PRA and risk-
       informed activities. However, the application reviews performed indicated that
       quality assurance standards and programs for implementing those standards do not
       appear to be fully defined or documented. The evaluation found some instances
       where better control would be appropriate and where new standards /approaches
       are planned to be developed and issued, either by the agency or industry
       organizations such as ANS and ASME.

       Specific findings in this area and that are documented in Section III are:

       ¾ SPAR models need improved configuration control.
       ¾ Quality assurance requirements for SAPHIRE and GEM software need to be
         defined and software control procedures implemented.

Determine if NRC is using PRA methods and data appropriately in its regulation of
      licensees

       Overall, the agency is using PRA appropriately. The evaluation identified some
       instances where increased technical review would be appropriate. Observations and
       areas for consideration are discussed later in this section.

Determine if NRC is achieving the objectives of its PRA Policy Statement

       NRC has largely achieved the objectives of the PRA Policy Statement as
       shown in Table IV-1. Significant effort has been expended by the NRC into
       developing and applying risk informed approaches since 1995. Determination of the
       efficiency of achievement was beyond the scope of this evaluation. Table IV-1
       provides a summary of the agency’s performance relative to key aspects of the PRA
       Policy Statement.




Final Report                                                                        Page 10
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                               Table IV-1
         Evaluation of NRC achievement of PRA Policy Statement
PRA Policy Statement     Evaluation Discussion
Area
PRA technology should be          The use of PRA has been increased in the Office of Nuclear
increased to the extent           Reactor Regulation, the Office of Nuclear Regulatory Research,
supported by the state-of-the     and the regional offices. There are multiple uses of PRA,
art in PRA methods and data       including the Individual Plant Examination Program, where
and in a manner that              vulnerabilities were identified and acted on (Pre-PRA Policy
complements the NRC’s             Statement), Anticipated Transient without Scram rule (Pre-PRA
deterministic approach and        Policy Statement), Station Blackout (Pre-PRA Policy Statement),
supports the NRC’s traditional    Maintenance Rule, Revised Reactor Oversight Process,
defense-in-depth philosophy.      Shutdown Risk Management (Pre-PRA Policy Statement),
                                  Improvements in Technical Specifications, Inservice Inspection,
                                  Inservice Testing, treatment of non-nuclear safety SSCs for
                                  advanced reactors, and fire protection.

                                  These uses have aimed at either reducing risk, where cost
                                  beneficial, or changing requirements which were unnecessarily
                                  burdensome. The agency is using PRA extensively at
                                  headquarters and the regional offices. The reviews of guidance
                                  documents and technical analyses provide extensive
                                  documentation that PRA use within the agency is extensive.

                                  Efficiency and gaining consensus in the combined use of
                                  traditional and PRA approaches (risk-informed approach) to
                                  decision making continues to be a challenge (which is to be
                                  expected).
Where practical, and within the   As noted above, examples include Inservice Inspection,
bounds of the state-of-the-art,   Technical Specifications, fire protection, and the Revised
use PRA to reduce                 Reactor Oversight Process.
unnecessary conservatism
associated with current           10 CFR50.69 and 10 CFR 50.46a are ongoing, significant topics
regulatory requirements,          where consensus has not yet been reached. Future events will
regulatory guides, license        determine if these two initiatives are successful in reducing
commitments, and staff            unnecessary conservatism in a cost-effective manner.
practices.
                                  In addition, activities are in progress and planned to review
                                  existing regulations from a risk informed perspective, in order to
                                  improve the regulatory process. This includes the Part 53
                                  initiative, which would be an alternative to Part 50.
Where appropriate, use PRA to     NRC continues to review and assess the risk significance of
support proposals for             operating experience (e.g. the Accident Sequence Precursor
additional regulatory             (ASP) program) and generic issues, such as containment sump
requirements in accordance        performance, using PRA as an input. Risk significance, using
with 10 CFR 50.109 (Backfit       PRA input, is a key factor in regulatory decision making.
Rule).                            Examples include: The Individual Plant Examination Program,
                                  where vulnerabilities were identified and acted on (Pre-PRA
                                  Policy Statement), Anticipated Transient Without Scram rule
                                  (Pre PRA Policy Statement), Station Blackout (Pre-PRA Policy
                                  Statement), Maintenance Rule, treatment of non-nuclear safety
                                  equipment for advanced reactors, and fire protection.


Final Report                                                                             Page 11
                                     Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


                               Table IV-1
         Evaluation of NRC achievement of PRA Policy Statement
PRA Policy Statement     Evaluation Discussion
Area
Develop and follow                  Several procedures and regulatory guides have been developed
appropriate procedures for          to support the development and application of PRA.
including PRA in the
process for changing                A major ongoing activity is the development of industry
                                    standards for all key PRA aspects and the
regulatory requirements.
                                    development/adaptation of corresponding regulatory guides.
                                    This activity is expected to improve the quality and efficiency of
                                    PRA development and application.

                                    The agency has been a major contributor to the development of
                                    standards and guidelines for developing and using PRA.
Develop PRA evaluations to be       Evaluations reviewed tended to be appropriately realistic. The
as realistic as practicable, with   consideration of uncertainties and the scope of PRA models
appropriate supporting data         remains a challenge. Also important is the clear identification
being publicly available for        and documentation of aspects of a decision which are either not
review.                             included in the PRA analysis or which are not amenable to PRA
                                    analyses.

                                    NRC has an active, ongoing program to enhance the processes
                                    and methods for addressing uncertainties and scope of PRA
                                    model and analyses.
Use the Commission's safety         Surrogate metrics such as CDF and LERF are the primary
goals for nuclear power plants      means for assessing risk significance. These surrogate goals
and subsidiary numerical            have been demonstrated to be consistent with the safety goals
objectives, with appropriate        and are practical metrics for routine applications. Regulatory
consideration of uncertainties.     Guides developed by the agency address uncertainties and
                                    deterministic measures, such as defense-in-depth and safety
                                    margins, in developing risk-informed inputs to a decision.



B. Observations
This section presents the observations from the evaluation. The agency and industry have several
fundamental challenges and opportunities to continue to benefit from a risk-informed, performance-
based approach to managing safety and resources. These are neither new nor unfamiliar; and the
agency has taken prior actions, and has actions in-place or planned.

An observation is defined as an isolated/minor departure from requirements disclosed during the
course of an evaluation which, if not addressed could lead to deficiencies or nonconformances in the
future. In addition, observations are provided which are either positive attributes or areas where
improvement should be considered. Suggested areas for consideration for NRC action are provided
where appropriate.


Observation: Positive PRA Environment
      Staff and Management interviewed openly shared opinions on PRA Application and
      Usage.

Area for Consideration: None

Final Report                                                                               Page 12
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)



Observation: Good PRA Acceptance
      PRA appears to be well accepted in the regions as part of “doing business” in
      accordance with defined programs. It is apparent that PRA is an integral part of the
      Reactor Oversight Process, SDP, Maintenance Rule, and other programs.

Area for Consideration: None


Observation: PRA Quality
      Reviews conducted indicated varying approaches to the quality of models and data.
      While no instances were found of PRA quality problems, a standard approach to
      PRA quality should be considered.

Area for Consideration:
       1. Consider implementing a requirement that all PRA within NRC be performed in
           accordance with existing or developed guidance documents and standards, as
           they become available and as they are applicable.


Observation: SRA Training
      A position of senior reactor analyst (SRA) has been created. Each region has at least
      two SRAs, with an aim to have three SRAs. SRA training requirements are
      documented in MC 1245, Appendix D1. The SRAs are a key element of
      implementation of the PRA Policy statement. The SRA Training Program leading to
      certification is well thought of and, based on this evaluation, appears effective.
      Maintaining the skills of the SRAs might benefit from a requalification program and
      continuing/advanced courses.

Area for Consideration:
       2. Consider implementing a continuing education program for the SRAs.


Observation: PRA Uncertainty
      Although all analyses have uncertainty, PRA analyses have a shorter history and
      fewer experts than many of the traditional engineering disciplines. Some expressed
      concerns with the manner in which uncertainties were considered in decision-
      making. Also important is the clear identification and documentation of aspects of a
      decision which are either not included in the PRA analysis or which are not
      amenable to PRA analyses (e.g., the impact of testing to demonstrate that
      calculations adequately represent the plant response to events).

Area for Consideration:
       3. Consider development of a more formal process for identifying and addressing
           uncertainties, especially when the uncertainty in the analysis is high. In addition
           to considering uncertainties amenable to PRA characterization, this process
           should:
              a. Clearly identify and document the aspects of a decision which are either
                 not included in the PRA analysis or which are not amenable to PRA
                 analyses (e.g., the impact of testing to demonstrate that calculations
                 adequately represent the plant response to events),

Final Report                                                                        Page 13
                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


               b. Be understandable, at its basic level, by non-PRA practitioners, including
                  management, so as to provide additional assurance that decisions are
                  made within the proper context of the uncertainty, and
               c. Consider the shared role of PRA and deterministic approaches.


Observation: Role of PRA
      Not unexpectedly, and consistent with Industry experience, the acceptance and
      views on the use of PRA varies, from exceptionally strong to exceptionally
      questioning. The review and decision-making processes in place at NRC appear fully
      capable of managing the potential for misapplication, but with the expected adverse
      effect of increased schedule and resource requirements. While PRA is generally
      well accepted as stated above, there remains a skeptical minority as well as a
      healthy concern that PRA be applied consistently and appropriately.

Area for Consideration:
       4. Consider developing and implementing training to address staffing changes,
           continuous staff development, and to bridge the gap between PRA and
           deterministic backgrounds.

Observation: PRA Strengths and Limitations Training
      Some interviewees suggested that the NRC should develop training that addresses
      the cultural concerns with using PRA for regulatory issues. This training could do
      more to discuss the strengths and limitations of the PRA, when it is most appropriate
      to use PRA and when it is more appropriate to use traditional methods, and the
      relationship of PRA scope and approach to traditional approaches. There is
      currently not a course to address this.

Area for Consideration:
       5. Develop a PRA strengths and limitations course and establish requirements for
           taking the course.


Observation: PRA Training Course Frequency
      PRA Training courses are extensive but offered on an infrequent basis (usually once
      per year) due to small number of attendees.

Area for Consideration:
       6. Consider enhancing the current PRA Training program to explicitly address the
           relationship of deterministic, PRA and risk-informed practices. In addition this
           training should consider uncertainties and scope as noted above. Should also
           consider adapting some courses to video / electronic training media so that they
           can be offered more frequently.


Observation: Differing Professional Opinion Process
      The agency has several well designed programs in place to allow staff to express
      concern if they feel that PRA is being misapplied. At the lowest level, the agency
      appears to be open to informal discussions between participants to voice dissenting
      opinions. At a more formal level, there is a non-concurrence process and a differing
      professional opinion process which allows staff to raise the issue to higher levels of

Final Report                                                                       Page 14
                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


       management. These processes appear to be well designed and are encouraged to
       be used.

Area for Consideration: None


Consolidated Areas for Consideration

       1. Consider implementing a requirement that all PRA within NRC be performed in
          accordance with existing or developed guidance documents and standards, as
          they become available and as they are applicable.

       2. Consider implementing a continuing education program for the SRAs.

       3. Consider development of a more formal process for identifying and addressing
          uncertainties, especially when the uncertainty in the analysis is high. In addition
          to considering uncertainties amenable to PRA characterization, this process
          should:
          a. Clearly identify and document the aspects of a decision which are either not
              included in the PRA analysis or which are not amenable to PRA analyses
              (e.g., the impact of testing to demonstrate that calculations adequately
              represent the plant response to events),
          b. Be understandable, at its basic level, by non-PRA practitioners, including
              management, so as to provide additional assurance that decisions are made
              within the proper context of the uncertainty, and
          c. Consider the shared role of PRA and deterministic approaches.

       4. Consider developing and implementing training to address staffing changes,
          continuous staff development, and to bridge the gap between PRA and
          deterministic backgrounds.

       5. Develop a PRA strengths and limitations course and establish requirements for
          taking the course.

       6. Consider enhancing the current PRA Training program to explicitly address the
          relationship of deterministic, PRA and risk-informed practices. In addition this
          training should consider uncertainties and scope as noted above. Should also
          consider adapting some courses to video/electronic training media so that they
          can be offered more frequently.




Final Report                                                                      Page 15
               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




APPENDICES




Final Report                                                        Page 16
                               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




Appendix A - Scope and Methodology of Evaluation
A.1 Introduction
This appendix describes the approach used to conduct this evaluation and specific
activities that were performed, namely:

   •   Development of a Project Plan,
   •   Interviews with NRC Headquarters and Regional Staff,
   •   Review of Management Practices and Identification of PRA Uses,
   •   Development of Prevailing Good Practices,
   •   Review of Risk Informed Regulation Implementation Plan (RIRIP) and Other PRA
       Activities, and
   •   Development of Observations and Findings.

The relationship of these activities is shown in the figure below.



                                              Project Plan




                             Review of
 Interviews with                                                            Review of
                            Management              Development of
NRC Headquarters                                                          RIRIP SA & EF
                           Practices and            Prevailing Good
and Regional Staff                                                         & Other PRA
                          Identification of            Practices
                                                                             Actvities
                             PRA Uses




                                Development of Observations and
                                          Findings




Each of these activities is discussed in the following sections.

A.2 Project Plan

A project plan was prepared to define the evaluation activities as well as the overall
project conduct. It included the approach and methodology for the evaluation including
the plan for conducting the fieldwork, document reviews and application reviews, as well
as the selection criteria for the application reviews.




Final Report - Appendix A                                                           Page 17
                              Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)



A.3 Interviews

Interviews were conducted with NRC staff at headquarters and at each of the regional
offices.

   •   NRC headquarters – 23 interviews where the incumbent of the position selected
       for interview (or their designee) participated and in some cases additional staff
       members.
   •   Interviews at NRC regions – 33 interviews including the Regional Administrators,
       the Division of Reactor Safety and Division Reactor Programs directors (or their
       designees), and at least one Senior Reactor Analyst (SRA) in each region.

The interviews were conducted to accomplish the following:

   1. Inform agency staff of the objectives, scope, and approach of the evaluation,
   2. Gain personal input on the use of PRA within the agency, including successes,
      opportunities, problems, and challenges,
   3. Gain personal input on programs, processes, and documentation which would
      enable the evaluation team to complete the project,
   4. Gain input to support the management oversight element of the evaluation, and
   5. Identify additional NRC staff with whom discussions would be meaningful.

Follow-up discussions were conducted as appropriate, based on reviews of technical
and programmatic documents.

A.4 Review of Management Practices and Identification of PRA Uses

Management practices related to PRA application and identification of PRA uses
included the review of a large number of supporting documents as well as information
obtained during the interviews discussed above. The information reviewed was
organized into the following categories:

   •   Policy,
   •   Plans, Regulatory Guides and Standards,
   •   Specific documents related to Senior Reactor Analysts,
   •   Inspections, Inspection Procedures / Manual / Evaluations / Assessments, and
   •   Training Programs.

A.5 Development of Prevailing Good Practices

The prevailing good practices developed for this project characterize the prevailing good
practices in PRA as of 2005. Prevailing good practices were defined or characterized as
the generally accepted practices for conducting, reviewing and documenting PRA. The
scope of the prevailing good practices documented included Level 1, 2, and 3 PRA,
external events (fire, seismic and other), shutdown and low power PRA, and PRA
Applications. Available guidance for PRA development and specific applications of PRA
was also established. See appendix B for additional information on prevailing good
practices.



Final Report - Appendix A                                                          Page 18
                               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


A.6 Review of RIRIP SA & EF and Other PRA Activities

As part of the evaluation, risk informed application categories for more detailed
investigation were selected from the RIRIP using a ranking scheme developed to focus
on the applications with the highest significance and use. Based upon the information
obtained from the interviews and from the review of management practices and
identification of PRA uses, candidate safety initiatives and activities (SAs) and
effectiveness initiatives and activities (EFs) for evaluation were further refined. The
candidate SA and EF areas were screened on the basis of information availability,
frequency of application, significance of application, level of difficulty, length of usage,
and reliance on guidance. The SAs, EFs and other PRA uses that the project team
identified for more detailed evaluation are shown in Table A-1 below. In addition to the
selected SA and EF activities, the project selected “Other PRA Applications” as noted in
the table.

                                     Table A-1
 List of Risk-Informed Regulation Implementation Plan Safety Initiatives and
 Activities & Effectiveness Initiatives and Activities and Other PRA Activities
                                     Reviews
RIRIP Reference SA-1: Maintain a RI Assessment Process for determining NRC Actions
      based on Performance Indicator and Inspection Implementation
   Task 1 – Annual Status Report on ROP Implementation
   Task 2 – Effectiveness of Engineering Design Inspections
   Task 3 – Sample SDP Notebook, Revision 2
   Task 4 – SDP Phase 3 Evaluation
   Task 5 – Sample of Implementation of an Inspection Procedure where PRA is considered
RIRIP Reference SA-5: Accident Sequence Precursor Analysis Program
   Task 6 – Annual SECY Report on status of ASP and SPAR model Development
RIRIP Reference SA-10: Develop risk informed improvement to the standard technical
      specifications
   Task 7 – Technical Specification Amendment Request
RIRIP Reference SA-11: Fire Protection for Nuclear Power Plants
   Task 8 – License Amendment related to fire (ML052310005)
RIRIP Reference SA-14: Evaluation of Loss of Offsite Power (LOOP) Events and Station
      Blackout Risk
   Task 9 – Evaluation of loss of offsite power (LOOP) event and station blackout (SBO) using
           SPAR model
RIRIP Reference EF-1: Creating a Risk-Informed Environment
   Task 10 – Management actions and plans related to a Risk-Informed Environment
RIRIP Reference EF-2: Develop standards for the application of risk informed,
      performance based regulation in conjunction with national standards committees
  Task 11 – NRC Regulatory Guides and Industry Standards
RIRIP Reference EF-3: Develop and maintain analytical tools for staff risk applications
   Task 12 – SAPHIRE and GEM Tools
RIRIP Reference EF-21: SPAR Model Development Program (formerly SA-6)
   Task 13 – SPAR models in ASP
   Task 14 – SPAR Model Development Program - Revision process and guidelines for Revision
          3P SPAR Models
   Task 15 – Quality assurance guidelines for SPAR Models
OTHER APPLICATIONS BEYOND THOSE DESCRIBED IN RIRIP



Final Report - Appendix A                                                              Page 19
                              Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


                                     Table A-1
 List of Risk-Informed Regulation Implementation Plan Safety Initiatives and
 Activities & Effectiveness Initiatives and Activities and Other PRA Activities
                                     Reviews
   Task 16 – Use of PRA for evaluation of Technical Specification Allowed Outage Time Changes
   Task 17 – Licensee incident evaluation through ASP Evaluation

A.7 Development of Observations and Findings

Evaluation findings and observations were developed from the information obtained in
the interviews, document reviews, and application evaluations and consideration of the
prevailing good practices.

A finding is defined as a nonconformance, disclosed during the course of an evaluation,
which requires written response indicating a corrective action plan and a schedule for
implementation.

An observation is defined as an isolated/minor departure from requirements disclosed
during the course of an evaluation which, if not addressed could lead to deficiencies or
nonconformances in the future. In addition, observations are provided which are either
positive attributes or areas where improvement should be considered.




Final Report - Appendix A                                                           Page 20
                               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




Appendix B - Summary of PRA Prevailing Good Practices
B.1      Introduction

This appendix summarizes the prevailing good practices in PRA as of 2005. A
document on prevailing good practices for PRA was developed as part of this project in
order to support the evaluation. Prevailing good practices are defined or characterized
as the generally accepted practices for conducting, reviewing and documenting PRA.
The scope of the prevailing good practices includes Level 1, 2, and 3 PRA10, external
events (fire, seismic and other), shutdown and low power PRA, and PRA Applications.
Available guidance for PRA development and specific applications of PRA is also
provided.

The PRA prevailing good practices are primarily based upon the ASME “Standard for
Probabilistic Risk Assessment for Nuclear Power Plant Applications”, ASME RA-S-2002
and its addenda, Regulatory Guide 1.200 for Trial Use, “An approach for Determining
the Technical Adequacy of Probabilistic Risk Assessment Results For Risk-Informed
Activities”, and NEI 00-02, “Industry PRA Peer Review Process and Guidelines”.

PRA has been used within the commercial nuclear power area for about 30 years.
During this time period, methods, data and specific applications have been documented
by NRC, vendors, consultants, licensees, national laboratories, and other U.S. and
International organizations. The prevailing good practices in methods and data have
changed with time.

No single document, or collection of documents, provides agreed upon prevailing good
practices for every past or future PRA development or application. Rather there are
multiple documents that have been developed over several years that serve to describe
the prevailing good practices. The fundamental approach to addressing quality has
been based on the following process:

      ¾ Using generally accepted methods and data or developing methods and data as
        deemed appropriate,
      ¾ Using qualified analysts,
      ¾ Subjecting the analysis to appropriate review, and
      ¾ Resolving review comments

To improve quality and the efficiency in preparing and reviewing PRAs and PRA
applications, several organizations have developed, and are developing, standards and
guidance. The major, recent or ongoing, documents that address PRA quality include:

      ¾ SECY-00-0162, July 28, 2000, “Addressing PRA Quality in Risk-Informed
        Activities,” (which provides the NRC approach to working with Industry to develop
        standards and provides minimum attributes and characteristics for a technically
        acceptable PRA).
10
  Level 1 PRA estimates the CDF (given an event that challenges plant operation occurs). Level
2 PRA estimates the containment failure and radionuclide release frequencies (given a core
damage state occurs). Level 3 PRA estimates the offsite consequences from a release, e.g.,
early and latent cancer fatalities (given a radionuclide release occurs).


Final Report - Appendix B                                                             Page 21
                                Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


      ¾ SECY-04-0118, July 13, 2004, “Plan for the implementation of the Commission’s
        Phased Approach to Probabilistic Risk Assessment Quality,” (which included a
        discussion of the plans for a three (3) phase approach to PRA quality).
      ¾ Numerous Regulatory Guides - 1.174, 1.175, 1.176, and 1.177- (for changes
        to the license basis; and in the case of NRC’s Inspection program, Inspection
        Manual Chapters, address specific application areas).
      ¾ Regulatory Guide 1.200 (for trial use), February 2004, “An Approach for
        Determining the Technical Adequacy of Probabilistic Risk Assessment Results
        for Risk-Informed Activities.” RG 1.200 addresses internal and external events for
        level 1 and level 2. (This RG, issued in February 2004, which is for trial use, also
        endorses the ASME standard with clarifications. Future revisions will address
        additional PRA standards as they are issued by the national consensus
        standards organizations.)
      ¾ ASME RA-S-2002 with addenda, December 2005 “Standard For Probabilistic
        Risk Assessment for Nuclear Power Plant Applications,” (The standard
        addresses Level 1 Internal Events PRA, Internal Flooding, and Large Early
        Release Frequency analysis (limited Level 2 PRA). The ASME standard does not
        address internal fires or other external hazards.)
      ¾ ANS Standard for External Events, ANSI/ANS-58.21-2003 “American National
        Standard External-Events PRA Methodology” (This standard addresses external
        hazards. NRC is expected to endorse, possibly with clarifications, in 2006 or
        2007.)
      ¾ ANS Standard for Fires (An internal fire PRA standard is under development by
        ANS, and is expected to be available in 2006. NUREG/CR-6850, Volumes 1 and
        2 “EPRI/NRC-RES Fire PRA Methodology for Nuclear Power Facilities” was
        issued in 2005 and provides guidelines for performing an internal fire PRA.)
      ¾ ANS Standard for LP/SD (A Low Power/Shutdown (LP/SD) Standard should be
        completed in 2006/2007.)
      ¾ ANS Activity for Level 2 and Level 3 (Development of Level 2 and Level 3
        Standards are under consideration by ANS.)
      ¾ Numerous Topical Reports


B.2      Evaluation Use of Prevailing Good Practices

Prevailing good practices were used to support the evaluation of NRC’s Use of PRA.
Guidelines for using prevailing good practices in this evaluation were established for 3
key areas:

      ¾ PRA development and application,
      ¾ PRA configuration control, and
      ¾ PRA review.


B.3      Prevailing Good Practices

This section summarizes the prevailing good practices in PRA that were completed for
all tasks of a Level I to III PRA, including internal and external events, and including
initiators from shutdown and low power. The following sections summarize the prevailing
good practices for PRA Scope, PRA Development and PRA Applications.



Final Report - Appendix B                                                            Page 22
                              Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




B.3.1 PRA SCOPE
The factors that affect the scope of a PRA include Endstates, Levels of PRA, Initiating
Events, Outage Types, and Mission Time. The specific treatment of each these factors
in the PRA is described in the table below, that includes an assessment of the state-of-
the-art in PRA for a particular factor, and then characterizes the current prevailing good
practice.




Final Report - Appendix B                                                          Page 23
                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                          Table B-1
                            Prevailing Good Practices PRA Scope
  PRA Scope                                   PRA Prevailing Good Practice
    Factor
Endstates           The state-of-the-art PRA models:
                       ¾ All plant operational states
                       ¾ Reactor trip as an undesired event
                       ¾ Boiling for the Reactor Coolant System (RCS) in Cold Shutdown and for the
                            Spent Fuel Pool
                       ¾ Core damage for all plant operational states.

                    The prevailing good practice is to address Internal events at power, and address the
                    remaining scope using either PRA or deterministic/qualitative assessments as
                    needed to address the specific topic.
Levels of PRA       A state-of-the art PRA would address Level 1, Level 2 and Level 3.

                    The prevailing good practice is to address LERF for internal events and address a
                    broader treatment of Level 2, and Level 3 only as needed (e.g., for Severe Accident
                    Mitigation Alternatives and Integrated Leak Rate Testing applications).
Initiating Events   The state-of-the-art PRA models internal, spatial, and external events explicitly.

                    Many state-of-the-art PRAs do not model initiating events involving fuel elements
                    outside of the active core. For example, initiating events involving the spent fuel pool,
                    or events involving the movement and transportation of fuel are not modeled.

                    The prevailing good practice is to model internal events explicitly and the other events
                    as needed either with PRA or qualitatively.
Outage Types        The state-of-the-art shutdown PRA models refueling outages, planned, and generally
                    forced outages. These outage types cover nearly all of the outages expected to be
                    encountered over the life cycle of a plant. Outages for steam generator replacement,
                    single loop operations, or a containment pressure test are examples of potential
                    exceptions that a state-of-the-art PRA would not have in its baseline modeling but
                    which could be adapted to model such situations.

                    The prevailing good practice varies here. The typical practice is to address outages
                    qualitatively.
Mission Time        A mission time of 24 hours following the occurrence of an initiating event is typically
                    modeled in the state-of-the-art PRA. Beyond twenty-four hours, the plant can
                    accomplish a wide variety of recovery actions or repair equipment following most
                    initiating events, such that modeling the accident progression of events beyond 24
                    hours is generally probabilistically insignificant. The state-of-the-art for some external
                    events is 72 hours to reflect the requirement for extended reliability of mitigating
                    equipment following an initiator such as a seismic event, tornado, or external flood
                    that may isolate the plant for more than a day. This is consistent between the Full
                    Power and Shutdown PRAs.

                    The prevailing good practice is consistent with the state-of-the-art.
Other               In general, detailed human errors of commission analyses modeling error
                    mechanisms and error producing conditions are not included in the state-of-the-art
                    PRA. However, errors of commission that have caused initiating events are often
                    explicitly modeled.

                    The prevailing good practice is consistent with the state-of-the-art.



Final Report - Appendix B                                                                   Page 24
                             Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




B.3.2 PRA Development

The prevailing good practice for each aspect of PRA development is summarized in
Table B-2 below, along with the prevailing good practice references for each area.

                                 Table B-2
                   Summary of PRA Prevailing Good Practice
                           For PRA Development
PRA Development Area                                            Prevailing Good
                                                                Practice References
                                                                (see Table B-4)
Internal Events PRAs
Initiating Events Analysis                                      1,2
Accident Sequence Delineation                                   1,2
Success Criteria/Thermal Hydraulic Analysis                     1.2
Systems Analysis                                                1,2
Human Reliability Analysis,                                     1,2
Data Analysis                                                   1,2
Internal Flooding                                               1,2
Quantification                                                  1,2
Level 2 PRA                                                     1,2
Level 3 PRA                                                     No Standard; Numerous
                                                                NUREGs
Low Power and Shutdown PRA                                      1,5
External Events PRA
Seismic                                                         3
Fire Risk Analysis                                              4
Other External Events                                           3,18,19


B.3.3 PRA Applications

The prevailing good practice for PRA Applications is summarized in Table B-3 below,
along with the prevailing good practice references for each area




Final Report - Appendix B                                                         Page 25
                                                                                    Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                                               Table B-3
                                                  Summary of Prevailing Good Practices
                                                      by PRA Application Areas

PRA Application       Description                                  References           Comments
Area                                                               (see Table B-4)
                                                                  Operational Uses
Maintenance Rule      (a)(4), for configuration control,           12                   All Plants must implement.
(10CFR50.65)          establishes requirement to assess and
                                                                                        NRC oversees implementation (inspection and
                      manage configuration risk. Scope of
                                                                                        enforcement).
                      SSCs may be limited based on risk-
                      informed evaluation process.                                      Utilities are increasing use of risk monitors and updating
                                                                                        PRAs.
Plant                 Use of PRA to reduce risk by                 20, 21               Ongoing program at utilities and NRC based on operating
Enhancements          implementing design, operational, and                             experience and new information (such as new insights from
                      maintenance changes.                                              PRA updates).
Plant Modifications   Use of the PRA to evaluate the risk          6                    PRA is routinely used in addition to other plant change
                      impact of proposed changes.                                       processes to assess the impact of plant changes.
                                                              Oversight (Industry-wide)
NRC Accident          Ongoing program to assess the                Not applicable       Ongoing Program.
Sequence              significance of events will continue.
                                                                                        Institute of Nuclear Power Operations and licensees also
Precursor Program
                                                                                        address.
NRC Plant             NRC continues to review industry-wide        Not applicable       Ongoing Program.
Reliability Studies   performance, including initiating events,
                                                                                        Institute of Nuclear Power Operations also addresses similar
                      component and system reliability, and
                                                                                        topics.
                      common cause failure evaluations.




Final Report - Appendix B                                                                  Page 26
                                                                                   Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                                              Table B-3
                                                 Summary of Prevailing Good Practices
                                                     by PRA Application Areas

PRA Application      Description                                   References          Comments
Area                                                               (see Table B-4)
                                                                       Licensing
Changes to the       Use of PRA findings and risk insights in      6                   Specific Applications are noted below.
Licensing Basis-     support of licensee requests to change a
                                                                                       RG 1.174 and other application-specific Regulatory Guides
General              plant’s licensing basis, as in requests for
                                                                                       are addressed when applying for a change, as appropriate.
                     license amendments and technical
                     specification changes.
NRC Requests for     NRC can request risk information for          6, 7, 20            Implemented by NRC as appropriate.
Risk Information     licensing action requests, even if the
for Licensing        request meets all existing requirements,
Actions              and did not use risk information as a
                     supporting basis.
In-Service           NRC has approved two methods                  8                   Most U.S. plants have implemented.
Inspection           (Westinghouse Owners Group and
                                                                                       Future initiatives could pursue further reduction in Section XI
                     Electric Power Research Institute) for
                                                                                       scope with no significant risk impact.
                     ASME Section XI weld exams.


In-Service Testing   NRC has approved risk-informed                9                   Only a few plants have implemented.
                     inservice testing approach for pump and
                     valve test interval optimization.




Final Report - Appendix B                                                                 Page 27
                                                                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                                           Table B-3
                                              Summary of Prevailing Good Practices
                                                  by PRA Application Areas

PRA Application    Description                                    References           Comments
Area                                                              (see Table B-4)
Technical          PRA application has supported many             10                   Many, if not most, plants for selected AOT extensions.
Specifications     individual allowed outage time (AOT)
                   extensions. Several risk informed
                   initiatives are underway addressing end                             Pilot plants for new initiatives.
                   states, mode restraints, 3.0.3, missed
                   surveillances, out of service times,
                   definition of "operability”.
Graded Quality     Grade Quality Assurance Program                11                   South Texas project received approval from NRC.
Assurance          implementation on the basis of risk
                   significance.
                                                                                       Mostly incorporated into 10CFR Part 69.
Control Room       Apply PRA and Risk-informed                    18, 19               Some plants have addressed toxic gas releases using
Habitability       approaches to support resolution of toxic                           assessments that establish the frequency of loss of control
                   gas issues related to control room                                  room habitability to be below 1E-6 per year. A few plants
                   monitoring and in-leakage.                                          have also included an assessment of the conditional
                                                                                       probability of core damage to demonstrate an acceptably
                                                                                       low frequency.
Appendix J         Change requirements for testing and/or         13, 14, 15, 16, 17   Many plants have implemented Option B, II.B to Appendix J
                   allowable leakage rates.                                            since 1994.




                                                               Oversight (Licensee)




Final Report - Appendix B                                                                Page 28
                                                                                  Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                                            Table B-3
                                               Summary of Prevailing Good Practices
                                                   by PRA Application Areas

PRA Application     Description                                  References           Comments
Area                                                             (see Table B-4)
ROP                 Revised ROP has been implemented.            Not applicable       Applied to all U.S. Plants.
                                                                                      NRC and Industry are implementing alternative performance
                                                                                      indicators to refine the current process and incorporate
                                                                                      lessons learned (MSPI).
Notices of          Use of PRA to support justification of       Not applicable       All U.S. plants.
Enforcement         continued operation (JCO) when explicit
                                                                                      Ongoing as appropriate.
Discretion          requirements, such as included in
                    Technical Specifications, can not be
                    demonstrated.
NRC Inspections     Use of PRA and risk Insights to improve      Not applicable       Applied to all U.S. Plants.
                    the focus and effectiveness of
                                                                                      Continuous improvement planned by NRC.
                    inspections.
Training for        Training to improve staff understanding of   Not applicable       Ongoing as appropriate.
Operators and       PRA and plant features to support
Technical Staffs    improvement in risk management.
                                                                 Rulemaking
Part 50 –           Rulemaking plan proposes new 10 CFR          Not applicable       Guideline for risk categorization and definition of treatment
Regulatory          50.69 to define the scope of SSCs subject                         under review by NRC.
Treatment (Option   to NRC “special treatment” regulations.
                                                                                      Owners Group Pilot Projects underway or planned.
2)                  Treatment would be function of risk
                    significance and existing safety                                  Draft Regulatory Guide, 1.201 issued in January 2006.
                    classification. Expected that treatment
                    would be adjusted for many SSCs.




Final Report - Appendix B                                                                Page 29
                                                                                 Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)




                                                            Table B-3
                                               Summary of Prevailing Good Practices
                                                   by PRA Application Areas

PRA Application    Description                                  References           Comments
Area                                                            (see Table B-4)
Part 50 – Risk-    Design bases would be changed to             Not applicable       San Onofre was the pilot plant for 50.44, and received
Informing          incorporate risk-insights and operating                           approval in 2000.
Technical          experience. The pilot regulation for
                                                                                     Westinghouse Owners’ Group is the industry lead in
Requirements       Option 3 was §50.44.
                                                                                     developing the basis for amending the large-break LOCA
(Option 3)         §50.46, specifically the large-break loss-                        requirement. Other owners’ groups are assessing the
                   of-coolant accident (LOCA) requirement,                           benefit to their plants. The schedule for implementing risk-
                   is in rule making.                                                informed improvements to other regulations will be based on
                                                                                     the §50.46 improvements.




Final Report - Appendix B                                                               Page 30
                               Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


                                   Table B-4
  Prevailing Good Practice References for PRA Applications Listed in Table B-2
                                    and B-3
Reference
Number in
                                              Reference Description
Tables B3
  & B4
     1        Regulatory Guide 1.200 (for trial use), February 2004, “An Approach for Determining the
              Technical Adequacy of Probabilistic Risk Assessment Results for Risk-Informed Activities
              Regulatory Guide 1.200 addresses internal and external events for level 1 and level 2.
              (This Regulatory Guide, issued in February 2004, which is for trial use, also endorses the
              ASME standard with clarifications. Future revisions will address additional PRA
              standards as they are issued by the national consensus standards organizations.)
     2        ASME Standard (The Standard for an internal events at power PRA is ASME RA-S-2002
              “Standard for Probabilistic Risk Assessment for Nuclear Power Plant Applications” with
              Addenda ASME RA-Sb-2005. The ASME standard contains criteria for a Level 1 Internal
              Events PRA, Internal Flooding, and Large Early Release Frequency analysis (limited
              Level 2 PRA). The ASME standard does not address internal fires or other external
              hazards.)
     3        ANS Standard for External Events, ANSI/ANS-58.21-2003 “American National Standard
              External-Events PRA Methodology” (which contains guidance for PRA studies of other
              external hazards. NRC is expected to endorse, possibly with clarifications, ANSI/ANS-
              58.21-2003 in 2006.)
     4        ANS Standard for Fires (An internal fire PRA standard is under development by ANS and
              is expected to be available in 2006. NUREG/CR-6850, Volumes 1 and 2 “EPRI/NRC-RES
              Fire PRA Methodology for Nuclear Power Facilities” was issued and provides guidelines
              in performing an internal fire PRA.)
     5        ANS/ASME Standard for LP/SD (whereby a Low Power/Shutdown Standard should be
              completed in 2006.)
     6        Regulatory Guide 1.174, “An Approach for Using Probabilistic Risk Assessment in Risk
              Informed Decisions on Plant-Specific Changes to the Licensing Basis.”
     7        Standard Review Plan Chapter 19, “Use of Probabilistic Risk Assessment in Plant-
              Specific, Risk-Informed Decisionmaking: General Guidance.”
     8        Regulatory Guide 1.178, “An Approach for Plant-Specific, Risk-Informed Decisionmaking:
              Inservice Inspection of Piping.”
     9        Regulatory Guide 1.175, “An Approach for Plant-Specific, Risk-Informed Decisionmaking:
              Inservice Testing.”
    10        Regulatory Guide 1.177, “An Approach for Plant-Specific, Risk-Informed Decisionmaking:
              Technical Specifications.”
    11        Regulatory Guide 1.176, “An Approach for Plant-Specific, Risk-Informed Decisionmaking:
              Graded Quality Assurance.”
    12        NUMARC 93-01.

    13        Integrated Leak Rate Test Interval – Additional Information," Nuclear Energy Institute,
              November 30, 2001
    14        NEI 94-01, “Industry Guideline for Implementing Performance-Based Option of 10CFR
              Part 50, Appendix J, July 26, 1995, Revision 0.
    15        “Interim Guidance for Performing Risk Impact Assessments in Support of One-Time
              Extensions for Containment Integrated Leakage Rate Test Surveillance Intervals”, Rev. 4,
              EPRI, November 2001.
    16        EPRI TR-104285, “Risk Assessment of Revised Containment Leak Rate Testing
              Intervals,” August 1994.
    17        NUREG-1493, “Performance-Based Containment Leak-Test Program, July 1995”.
    18        Standard Review Plan; Sections 2.2.1, 2.2.2, 2.2.3, and 6.4, NUREG-0800.


Final Report - Appendix B                                                               Page 31
                              Evaluation of NRC’s Use of Probabilistic Risk Assessment (PRA)


                                   Table B-4
  Prevailing Good Practice References for PRA Applications Listed in Table B-2
                                    and B-3
Reference
Number in
                                            Reference Description
Tables B3
  & B4
    19        Assumptions for Evaluating the Habitability of a Nuclear Power Plant Control Room
              During a Postulated Hazardous Chemical Release; Regulatory Guide 1.78, U.S. Atomic
              Energy Commission, June 1974.
    20        Backfit Rule (10CFR50.109).
    21        NRC ranking of Safety Issues, such as provided in NUREG-0933.




Final Report - Appendix B                                                          Page 32
